<html>
<title> - EXAMINING SOBER LIVING HOMES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                      EXAMINING SOBER LIVING HOMES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON THE CONSTITUTION
                           AND CIVIL JUSTICE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2018

                               __________

                           Serial No. 115-70

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         




         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
      
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 33-123                   WASHINGTON : 2018            
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
Wisconsin                            ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIRREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
KEN BUCK, Colorado                   JAMIE RASKIN, Maryland
JOHN RATCLIFFE, Texas                PRAMILA JAYAPAL, Washington
MARTHA ROBY, Alabama                 BRAD SCHNEIDER, Illinois
MATT GAETZ, Florida                  VALDEZ VENITA ``VAL'' DEMINGS, 
MIKE JOHNSON, Louisiana                  Florida
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Florida
KEITH ROTHFUS, Pennsylvania

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel

           Subcommittee on the Constitution and Civil Justice

                      STEVE KING, Iowa, Chairman 
LOUIE GOHMERT, Texas                 STEVE COHEN, Tennessee
KAREN HANDEL, Florida                JAMIE RASKIN, Maryland
                                     THEODORE E. DEUTCH, Florida
                                     
                                     
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 28, 2018

                           OPENING STATEMENTS

                                                                   Page
The Honorable Steve King, Iowa, Chairman, Subcommittee on the 
  Constitution and Civil Justice.................................     1
The Honorable Steve Cohen, Tennessee, Ranking Member, 
  Subcommittee on the Constitution and Civil Justice.............
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................

                               WITNESSES

The Honorable Judy Chu, 27th District of California, U.S. House 
  of Representatives
    Oral Statement...............................................     2
The Honorable Dana Rohrabacher, 48th District of California, U.S. 
  House of Representatives
    Oral Statement...............................................     4
Erik Peterson, Mayor Pro Tempore, Huntington Beach, CA
    Oral Statement...............................................     8
Todd Leishman, Attorney, Best, Best & Krieger
    Oral Statement...............................................     9
Sara Pratt, Counsel, Relman, Dane & Colfax, PLLC
    Oral Statement...............................................    11
Dave Aronberg, State Attorney, 15th Judicial Circuit, FL
    Oral Statement...............................................    12
                        QUESTIONS FOR THE RECORD

The Honorable Steve King, Iowa, Chairman, Subcommittee on the 
  Constitution and Civil Justice, Questions for the Record. This 
  material is available at the Committee and can be accessed on 
  the committee repository at:

    https://docs.house.gov/meetings/JU/JU10/20180928/108684/HHRG-
      15-JU10-20180928-SD005.pdf

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

Letters Submitted by the Honorable Steve King, Iowa, Chairman, 
  Subcommittee on the Constitution and Civil Justice. This 
  material is available at the Committee and can be accessed on 
  the committee repository at:

    https://docs.house.gov/meetings/JU/JU10/20180928/108684/HHRG-
      115-JU10-20180928-SD003.pdf https://docs.house.gov/
      meetings/JU/JU10/20180928/108684/HHRG-115-JU10-20180928-
      SD004.pdf

Letters submitted by the Honorable Steve Cohen, Tennessee, 
  Ranking Member, Subcommittee on the Constitution and Civil 
  Justice. This material is available at the Committee and can be 
  accessed on the committee repository at:

    https://docs.house.gov/meetings/JU/JU10/20180928/108684/HHRG-
      115-JU10-20180928-SD006.pdf

Letters Submitted by the Honorable Ted Deutch, 21st District of 
  Florida, U.S. House of Representatives. This material is 
  available at the Committee and can be accessed on the committee 
  repository at:

    https://docs.house.gov/meetings/JU/JU10/20180928/108684/HHRG-
      115-JU10-20180928-SD007.pdf


                      EXAMINING SOBER LIVING HOMES

                              ----------                              


                       FRIDAY, SEPTEMBER 28, 2018

                        House of Representatives

           Subcommittee on the Constitution and Civil Justice

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:07 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve King 
[Chairman of the Subcommittee] presiding.
    Present: Representatives King, Handel, Cohen, and Deutch.
    Staff present: John Coleman, Counsel; Jake Glancy, Clerk; 
James Park, Minority Chief Counsel; Matthew Morgan, Minority 
Professional Staff Member; and Veronica Eligan, Minority 
Professional Staff Member.
    Mr. King. The Subcommittee on the Constitution and Civil 
Justice will come to order.
    Without objection, the chair is authorized to declare 
recess of the committee at any time.
    We welcome everyone to today's hearing on examining Sober 
Living Homes, and I now recognize myself for an opening 
statement.
    According to the Centers for Disease Control, more than 115 
people in the U.S. die after overdosing on opioids every day. 
In 2017, more than 72,000 Americans died from drug overdoses, 
overall. In addition to the vast number of families who are 
suffering the loss of a loved one, these numbers are staggering 
for us, as a Nation. It is clear that we need safe and 
effective recovery options to combat this epidemic to ensure 
that people have the opportunity to get the help they need.
    One popular option is known as a sober living home. Sober 
Living Homes are group homes for recovering addicts or 
alcoholics in the later stages of treatment that provide a 
place from them--a place for them to live, while they receive 
outpatient care.
    While sober living houses are modeled in different ways, 
one common feature is that these homes are located in single-
family, generally middle class residential neighborhoods. While 
a well-run sober living home may provide a suitable environment 
for recovering individuals to integrate back into the 
community, some Sober Living Homes, according to testimony 
submitted to this committee, are either poorly managed, or are 
run by operators who dangerously exploit their residents, and 
that is for profit.
    For example, Advocates for Responsible Treatment, which 
submitted a testimony to today's hearing, compiled a list of 
news articles from across the country. I would like to read a 
few of these headlines: ``Milwaukee Addict Recovery Home Facing 
Questions After Five Overdose Deaths Since 2017''; ``Owner of 
Drug Recovery Home Caught Selling Heroine and Fentanyl to 
Residents''; another is ``Heroine Bust at Sober Home: Police 
Find Trove of Stolen Items and Drugs''; another one is 
``Pennsylvania Heroine Recovery Houses Often are `Drug Dealer's 
Dream' ''--and that is in quotes.
    They are just a few of the many headlines provided by--to 
this committee. But all of them indicate that there is a very 
real problem that needs to be addressed. Indeed, many local 
governments have answered the call to regulate Sober Living 
Homes, but many have been sued under the Fair Housing Act and 
the Americans With Disabilities Act for doing so.
    Today's hearing will examine these laws, the concerns with 
their application, and proposed legislation that they are 
seeking to remedy the problem.
    I look forward to all of our witness testimony, and I want 
to thank you in advance for that testimony.
    And now I recognize the--I want to say acting--ranking 
member for today, the gentleman, Mr. Deutch, for his opening 
statement.
    Mr. Deutch. Thank you, Mr. Chairman. I appreciate it. But 
it is a vitally important topic. I have some comments, but out 
of respect for our members who are here, I will defer.
    Mr. King. Okay, I thank the gentleman. And now I would like 
to introduce the witnesses. I would like to introduce our first 
witness, which is Representative Judy Chu from California. And 
also our second witness is Representative Dana Rohrabacher, 
also of California.
    And you know the rules in this place, I am really 
confident. And so I would ask you, first, to stand to be sworn 
in, each of you.
    Would you raise your right hand, please?
    Do you swear to tell the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Thank you, and let the record reflect that they have 
responded in the affirmative.
    And I now recognize Ms. Chu for her opening statement. Ms. 
Chu--for her testimony, excuse me.

 TESTIMONY OF THE HON. JUDY CHU, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF CALIFORNIA; AND THE HON. DANA ROHRABACHER, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

                     TESTIMONY OF JUDY CHU

    Ms. Chu. Chairman King and Acting Ranking Member Deutch, I 
want to start by thanking you for inviting me to testify on 
this important issue which has impacted all of our districts.
    I appreciate that this subcommittee is examining the role 
of Sober Living Homes in our communities and how they 
contribute to the recovery process for those suffering from 
addiction.
    Sober Living Homes, also known as recovery residences, 
offer a place to stay for those who have completed treatment 
and are trying to rebuild their lives. However, the lack of 
regulation around the operation of these homes is of serious 
concern, which means that these facilities may be unequipped to 
handle patients at risk of overdose, or do not employ staff 
with specialty training.
    In the worst cases, some bad actors do not encourage 
recovery at all, but exploit vulnerable individuals in order to 
collect insurance payments. This can mean life or death for 
people like Tyler from my district of Pasadena, California. 
Tyler died from an overdose after a sober home didn't recognize 
the symptoms of his overdose, nor did they have Naloxone, the 
medication that can reverse an overdose on hand. Tyler was only 
23 years old.
    Unfortunately, this is not an isolated incident. I have 
heard from advocates in Arizona, Pennsylvania, Missouri, 
Florida, and Ohio who are concerned for their friends and 
family members living in unregulated sober living facilities.
    I would like to submit for the record a New York Times 
article from 2015 and a recent report from the Department of 
Justice outlining abuse and fraud at Sober Living Homes in New 
York and Florida. These reports describe sober living 
facilities that lacked access to Naloxone, ordered unnecessary 
tests on residents to exhaust their insurance benefits, and 
required residents to relapse and re-enter treatment so 
resident directors could claim some of the Medicaid benefits.
    Licensing for recovery residences, or sober living 
facilities, varies substantially from state to state, and there 
are facilities in every state that operate without the 
necessary licenses. Further, oversight of these licenses is 
minimal.
    And so patients and their families struggle to distinguish 
good actors from bad ones. For some of these individuals, they 
may not discover that a facility is negligent until it is too 
late.
    And that is why, after hearing about Tyler's death from his 
friend, Ryan Hampton, a recovery advocate in my district, I 
worked with the National Alliance for Recovery Residences to 
craft legislation that would help address this problem without 
further victimizing the people we are trying to help. As a 
result, I introduced H.R. 4684, the Ensuring Access to Quality 
Sober Living Act.
    My bill directs the Department of Health and Human Services 
to develop a set of best practices for residential recovery 
facilities so that patients, families, and states can 
distinguish quality sober living facilities from sites that are 
fraudulent or unequipped to offer appropriate assistance to 
their residences.
    H.R. 4684 requires HHS to disseminate these best practices 
to each state, and authorizes the agency to provide technical 
assistance and support to states that wish to adopt or 
implement these best practices.
    In addition, the bill allows states who are struggling to 
address the opioid crisis and all of its consequences to work 
with HHS to help set up criteria to designate quality sober 
living facilities. These benchmarks include common-sense 
measures like requiring that all fees and charges be explained 
to residences before they enter a binding agreement; that paid 
work performed at the facility by the residences be completely 
voluntary, and not impede the recovery process; and to avoid 
deaths like Tyler's, the bill requires Naloxone to be available 
and accessible, and that staff and residences are trained to 
use it in emergencies.
    H.R. 4684 also ensures that individuals looking for a place 
to stay will not be turned away because they have been 
prescribed medication-assisted treatment, or MAT, by their 
physician to help them recovery [sic].
    H.R. 4684 provides an alternative to undermining existing 
civil rights laws by creating a new set of standards so that 
these facilities are biding by best practices and are not 
presenting a harm to the surrounding communities.
    H.R. 4684 is a bipartisan bill with cosponsors including 
Congressmembers Mimi Walters, John Lewis, and Greg Walden. It 
has been endorsed by the National Alliance for Recovery 
Residences, the American Psychological Association, and the 
Orange County Board of Supervisors.
    Thank you again for taking the time to hear from us on ways 
to address this growing crisis.
    Mr. King. We thank the gentlelady from California, and the 
chair now recognizes the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Yes, thank you much, Chairman King, 
Ranking Member Cohen, and other members of the subcommittee. 
Thank you for holding this hearing. And before I begin I will 
note that I have received testimony from dozens of my 
constituents about this issue and how it affects their lives, 
and I ask that these statements be included in the hearing 
record.
    Mr. King. Without objection.
    [The information follows:]
This material is available at the Committee and can be accessed 
on the committee repository at:
https://docs.house.gov/meetings/JU/JU10/20180928/108684/HHRG-
115-JU10-20180928-SD003.pdf https://docs.house.gov/meetings/JU/
JU10/20180928/108684/HHRG-115-JU10-20180928-SD004.pdf
    Mr. Rohrabacher. I also have letters from several city 
governments in my district on how they are affected by this 
problem, and I ask that they too be included in the record.
    Mr. King. Without objection, so ordered.
    [The information follows:]
This material is available at the Committee and can be accessed 
on the committee repository at: https://docs.house.gov/
meetings/JU/JU10/20180928/108684/HHRG-115-JU10-20180928-
SD003.pdf https://docs.house.gov/meetings/JU/JU10/20180928/
108684/HHRG-115-JU10-20180928-SD004.pdf

                 TESTIMONY OF DANA ROHRABACHER

    Mr. Rohrabacher. As we are all aware, our country is 
enduring a crippling opioid epidemic. Many of our fellow 
citizens of all ages and social statutes are painfully 
struggling to seek ways to end their dependence on pills that 
have all too often been legally flooded into our towns and 
cities and rural communities. I come before you today to 
discuss the impact that this challenge has had on many suburban 
communities, including those in my district in Orange County, 
California.
    Our challenge is different than just salvaging the lives of 
addicts. It seems alcoholics and drug addicts are being 
recruited throughout our country to seek recovery in the 
wonderful environment of our Southern California residential 
neighborhoods. Residential recovery facilities, more commonly 
known as Sober Living Homes, have proliferated to the point 
that, in my home town in Costa Mesa, it has been labeled Rehab 
Riviera. Something is fundamentally wrong with this scenario.
    Our Sober Living Homes are not actually homes, but 
businesses that operate out of single-family homes in 
residential neighborhoods zoned for families. There are no 
standards or criminal background checks on those who can 
operate such a business. A significant number are run by 
unscrupulous owners and operators who willfully disregard the 
well-being of the addicts they are supposedly saving, while 
simultaneously reducing the quality of life in communities 
where these homes are located.
    Under normal circumstances this problem would be addressed 
by local government. But in this case, federal law shields the 
bad actors with the protections meant for their clients. 
Federal law designates recovering addicts and alcoholics as 
disabled. The Fair Housing Act protects them from 
discrimination in housing, and its protections have then been 
extended to the business servicing them. This has an unintended 
effect: states and local governments have been consistently 
rebuked by the courts that say laws and ordinances that target 
these facilities discriminate against the people who are living 
in the facilities.
    Meantime and meanwhile, crooked owners and operators laugh 
all the way to the bank. They operate for-profit businesses 
posing as housing providers for the disabled--meaning drug 
addicts and alcoholics--who are being located in residential 
neighborhoods. All of this is happening without accountability 
or oversight.
    Indeed, the Government Accountability Office issued a 
report showing that insurance fraud is rampant among these 
facilities in these states across the country. Tracking these 
recovery houses and the problems associated with them is 
impossible because unlicensed facilities are not registered, 
nor are they systematically inspected.
    In short, there is a distinct lack of local oversight and 
authority. The situation has proven harmful to local 
residential communities. And, yes, those who are trying to free 
themselves from drug and alcohol addiction have also been 
mistreated by this. They are victims in more ways than one.
    Furthermore, the neighborhood impact is alarming. My 
constituents report increases in criminal activity, 
disturbances, emergencies, visits--emergency visits at all 
hours of the night and day, noise, and filth, and trash, and 
other issues around these particular homes, but not at the 
other homes in their neighborhood. The occupants are transient, 
and they are sheltered for only weeks, if not days. And in 
fact, there is no time--there is no commitment from these 
people at all about their community or their neighborhood.
    Too many addicts relapse--and sometimes repeatedly they 
relapse--and illegally obtain drugs. After relapse, the 
individual often--and after they relapse from their treatment, 
they have no place else to go, and they end up homeless on our 
streets. This system, as is designed, to exploit people who 
desperately need help. And it is unfair to require residential 
neighborhoods to bear the burden of shoddy, unregulated 
recovery by reducing the quality of life and decreasing the 
home values of the people who live in that neighborhood.
    Let's do the right thing and balance the needs of 
communities and recovering addicts. This hearing is a good 
start.
    I will note that I have introduced legislation that I 
believe would help fix the problem, not by furthering more 
government regulation at the federal level, but empowering 
local and state governments. H.R. 5724, the Restoring Community 
Oversight of Sober Living Homes Act, would be the first good 
step.
    I would clarify that nothing in the federal law is 
protecting--and my bill would clarify that nothing in federal 
law protecting those with disabilities would prohibit local 
government from regulating or banning these facilities in 
residential neighborhoods. For that to work, the bill defines 
recovery facility in the federal code. And then those 
residential--those in residential zones are exempt from the 
definition of ``dwelling'' for the purpose of protecting under 
the Fair Housing Act.
    Furthermore, my bill would bar federal money from being 
given to homes that are not licensed by local communities.
    Lastly, it would remove the treatment of substance use 
disorder from the list of essential health benefits for the 
purpose of insurance. Now, that is a very difficult position 
for many of my colleagues to take. I understand that. But it 
would remove the unintended incentive for operators of these 
treatment centers to encourage patients to relapse and gravely 
endanger their lives in order to obtain more, and a lucrative 
insurance coverage.
    I would appreciate the opportunity to work with this 
subcommittee on moving this bill forward so we can provide 
local government with the tools to help communities and to help 
addicts who are so poorly served by the status quo.
    I thank you again for conducting this hearing. It is a 
complicated problem. It deserves our attention. And I 
appreciate your willingness to give this an honest look.
    Mr. King. The chair thanks the gentleman from California 
for his testimony and the gentlelady from California for her 
testimony, as well. And, as is the practice of this committee, 
we appreciate you being here, and you will be dismissed without 
questions, as standard. And I would invite the other witnesses 
to be seated. I thank both of you.
    [Pause.]
    Mr. King. I see that our witnesses are comfortably seated 
and familiar with the terrain around you.
    First I would say that you recognize that when you speak 
you turn the light on on your microphone. That will give you--
the light will be five minutes. That is four minutes of green 
light, one minute of amber light, and we will give you a little 
latitude to conclude your thoughts. We want to hear what those 
thoughts actually are.
    And so, I would like to introduce our witnesses.
    And then our first witness is Erik Peterson. He is the 
mayor pro tem of Huntington Beach, California.
    The second witness is Todd Leishman, an attorney with the 
Best, Best and Krieger--Todd.
    And our third witness, Sara Pratt, and--counsel with 
Relman, Dane and Colfax, PLLC.
    And the fourth witness I am going to have to have a little 
help from Florida.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. It is my pleasure to 
welcome my constituent and friend, Palm Beach County State 
Attorney Dave Aronberg, to Washington this morning. Dave was 
born in Miami, attended public schools before going on to 
graduate with honors from Harvard College and Harvard Law 
School. He was an assistant attorney general, White House 
fellow, and we were colleagues together in the Florida State 
Senate.
    In 2010 Mr. Aronberg joined the Florida Attorney General's 
office as special prosecutor for prescription drug trafficking. 
As the Attorney General's drug czar, he led an anti-pill mill 
initiative that helped clean up the pain clinic industry and 
reduce the record number of people dying every day from 
Oxycodone abuse. His work to save lives from drug overdoses 
continues as a top priority today.
    He was elected state attorney for the 15th Judicial Circuit 
in November 2012, re-elected in 2016, where he has led a group 
of 120 prosecutors and 220 professional staff in 5 offices 
throughout Palm Beach County. His leadership has led to a 
significant increase in conviction rates for both felonies and 
misdemeanors.
    I have a lot to say, and I intend to finish.
    A decrease in the number of juveniles direct-filed into the 
court, and greatly improved his working relationship with 
local, state, and federal law enforcement agencies.
    And finally, Mr. Chairman, in July 2016 Mr. Aronberg 
created a sober homes task force that has made more than 55 
arrests for patient brokering and insurance fraud in the rehab 
industry, has led to new Florida laws and regulations that have 
become the model for other states.
    Aronberg's efforts convinced Google to restrict 
advertisements and improve screening for addiction treatment. 
And as opioid deaths continue to rise nationally, Palm Beach 
County experienced a 62 percent decrease in opioid overdose 
deaths in the first 4 months of 2018, compared to the same 
period last year.
    This committee thanks you for being here with us this 
morning, Mr. Aronberg, and we look forward to your testimony.
    And I thank the chairman for indulging me with that 
introduction.
    Mr. King. I was expecting a superlative introduction, but 
it exceeded my expectations. [Laughter.]
    Mr. Deutch. I thought it might.
    Mr. King. And I now ask the witnesses if you would stand to 
be sworn in, please, and raise your right hands.
    Do you swear that the testimony you are about to give 
before this committee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Thank you, you may be seated--let the record reflect that 
the witnesses all responded with an affirmative.
    And I now, for the beginning testimony, I would like to 
recognize Mayor Peterson.
    Mayor Peterson, for your initial five minutes. Is your 
microphone on?

   TESTIMONY OF ERIK PETERSON, MAYOR PRO TEMPORE, HUNTINGTON 
  BEACH, CALIFORNIA; TODD LEISHMAN, ATTORNEY, BEST, BEST, AND 
 KRIEGER; SARA PRATT, COUNSEL, RELMAN, DANE AND COLFAX, PLLC; 
   AND DAVE ARONBERG, STATE ATTORNEY, 15TH JUDICIAL CIRCUIT, 
                            FLORIDA

                   TESTIMONY OF ERIK PETERSON

    Mr. Peterson. Good morning, esteemed members of the 
committee and staff. My name is Erik Peterson. I am the mayor 
pro tem of the great city of Huntington Beach, California. I am 
here today to attempt to shine a light on the ever-increasing 
difficulties our city and many other jurisdictions have with 
addiction recovery housing, sometimes referred to as Sober 
Living Homes. I would like to start my testimony by reading a 
statement from a testimony you should have received from a 
California-based organization called Advocates for Responsible 
Treatment.
    Addiction recovery housing takes many forms, one of which 
is businesses that provide commercial services to short-term, 
transient occupants, in permanent residential neighborhoods, 
where such uses are often prohibited by zonings. A myriad of 
overlapping federal and state law and case law unintentionally 
grants excess privileges to these businesses.
    Essentially, businesses obtain rights superior to those of 
other households in the same neighborhoods. Local limits on 
operations of such businesses are interpreted by the court and 
the state to be discriminatory, regardless of whether the 
operations exceed reasonable accommodation or grant more than 
equal rights of neighboring homeowners. By granting these 
privileges to operate without distinction or restriction, the 
courts have failed to note that the houses do not even meet the 
spirit of ADA, which is to de-institutionalize the disabled and 
integrate the protected class into the community.
    In just the last two years, recovery houses have been 
identified as a concern in municipalities in over 100 
congressional districts. Citizens executing their right of free 
speech on the issue have been sued by businesses in an attempt 
to freeze public dialogue. Many municipalities have lost 
millions fighting lawsuits claiming housing discrimination, to 
which no disabled individual is party.
    Unnecessary litigation drives investigations by the 
Department of Justice, Housing, and Urban Development. To meet 
requests of Members of Congress for clarification in 2016, the 
DOJ and HUD produced a 20-page document which reinstated the 
issue, but gave no clear guidance.
    Congressman Rohrabacher's H.R. 5724, Restoring Community 
Oversight of Sober Living Homes Act of 2018 is the second bill 
in two years attempting to clarify local control to come to the 
Judiciary Committee. The first was proposed by Congressman Issa 
in September of 2016. We are grateful for the Judiciary 
Committee moving forward to review this legislation, because 
this issue will not go away until it is finally addressed by 
Congress.
    Ignoring the issue results in disastrous effects on long-
term residential neighborhoods, and fuels an increase of abuse 
in--of the protected class. Better local and state regulations 
of recovery housing is very much a matter of life and death.
    Ladies and Gentlemen, when I was asked to testify in front 
of this community [sic], I reached out to my constituents and 
asked them to submit their stories. I believe you have received 
many of them. What got me were the stories of the parents of 
the victims of some of these facilities.
    In our city we have houses with multiple overdoses and 
deaths, and all we can do is send our firefighters in to pick 
up the pieces. A few Sundays ago, someone forwarded me a 
program from a funeral they were attending of a 21-year-old 
lady who died in a recovery home. She was dead for 12 hours 
before it was reported to the authorities.
    The opioid crisis in our country is destroying the basis of 
our society, which is our families and communities. In an 
attempt to help or be companionate, we have further placed the 
burden on our communities and left thousands of people who need 
help at risk.
    The City of Huntington Beach has found that many of our 
homeless have come from these facilities. Through what is 
referred to as body brokering, addicts are recruited from 
around the country and sent to places like Southern California, 
Florida, and Arizona. After the individual is placed in a home, 
many recovery companies sign them up for as much public 
assistance and insurance as possible, and offer bed vouchers 
for local resident homes. When the money runs out, they curb 
them. In other words, they kick them to the street, and many 
have not even received proper recovery.
    Over the last year our city has had to help 65 people get 
home that were stuck.
    I thank you again for letting us--for reviewing this 
legislation.
    Mr. King. Thank you, Mayor Pro Tem Peterson. I appreciate 
your testimony, and the chair now recognizes Mr. Leishman for 
his testimony.
    Mr. Leishman, you are recognized.

                   TESTIMONY OF TODD LEISHMAN

    Mr. Leishman. Thank you. Good morning, Mr. Chairman and 
members of the committee. My name is Todd Leishman. I am an 
attorney with Best, Best and Krieger. We advise cities 
throughout the country on issues they face, including questions 
about Sober Living Homes. But these comments today are my own.
    If I can only convey one message to you this morning, it is 
this: Congress must clarify federal law to make clear that 
local government may regulate recovery businesses to protect 
people in recovery.
    People in recovery benefit most from living in residential 
facilities that are small, spread out, and well run. The least 
intrusive and most effective way to ensure this is through 
local regulation. If Congress fails to clear the way for local 
government to protect them, then more people will relapse in 
the very facilities that are supposed to help them. More 
residents will be trafficked, abused, and raped. More will 
overdose, and more will die.
    I wish this were hyperbole, but it is not. All of these 
things are happening in recovery facilities in communities in 
every congressional district in our Nation, and they are 
happening in large part because federal law leaves open a 
radical and, I think, perverse interpretation that insists that 
local government may not regulate recovery operators at all, 
even when it is to protect people in recovery.
    Some operators argue that anti-discrimination laws prevent 
any regulation of their business because they serve disabled 
people. Recovering addicts are disabled under federal law. So, 
they say, their recovery business use must be treated for all 
purposes as if it were a single-family household. Congress 
needs to close this loophole to allow local government to 
protect the very social model that recovering addicts need.
    You see, before the 1970s, care for recovering addicts was 
primarily provided in institutional medical settings. In this 
medical model, people were sent to hospitals to dry out and get 
clean. Many people ended up in these institutional settings, 
even though with just basic care they could function well in 
our community. That fact gave rise to a better alternative: a 
non-medical social model.
    At the heart of the social model is this: we are trying to 
turn patients into neighbors. But for that to work, they have 
to be in a neighborhood that is actually residential. They need 
to live in a setting that closely approximates a residential 
household in scale and function. They need to be surrounded by 
neighborhood residents with whom they have opportunities to 
interact in normal, neighborly ways. And, of course, facilities 
need to be run responsibly.
    In other words, recovering addicts need facilities that are 
small, spread out, and well run.
    The social model does not work when recovering addicts live 
in large, institutionally-sized dorms, nor does it work when 
they are surrounded by other recovery facilities, effectively 
stuck in a recovery cul de sac or campus. Yet, to make more 
money, many operators increase occupancy, concentrate 
facilities together, and cut corners to the detriment of 
recovering residents.
    When operators shield themselves from reasonable local 
regulation, claiming that size, separation, and operational 
standards don't apply to them because they serve recovering 
addicts, it is the people in recovery who suffer. With my 
written testimony I have included scores of examples of what 
happens when operators evade local regulation. The examples 
turn the stomach. We heard some of those headlines earlier: 
operators selling drugs to residents; house managers trading 
drugs to residents for sex; rapes; resident and house manager 
overdoses. And that doesn't even get into the human trafficking 
and fraud problems that are so common.
    Local government is in the best position to prevent these 
abuses.
    In sum, Congress needs to confirm that local government may 
reasonably regulate recovery businesses to protect the people 
they serve. Please make it plain that permissible regulation 
includes maximum occupancy limits, so that residents get the 
benefit of living somewhere that is comparable to a typical 
residential household; minimum separation requirements, so that 
residents get the benefit of living in an actual residential 
neighborhood, not in a recovery cul de sac or campus, and can 
have meaningful, normal interactions with neighbors; and 
minimum operational standards, so that those who care for 
recovering residents are qualified and accountable, and 
facilities are safe and well-run.
    The social model is--of recovery is good. I think it is 
vital. And we need to protect it at the local level. Federal 
law needs to expressly allow that to happen. Thank you.
    Mr. King. Thank you, Mr. Leishman. And the chair now 
recognizes the gentlelady, Ms. Pratt, for her testimony.
    Ms. Pratt, you are recognized.
    Ms. Pratt. My apologies. Hear me now?

                    TESTIMONY OF SARA PRATT

    Ms. Pratt. I am counsel at the law firm of Relman, Dane and 
Colfax, here in Washington. I previously served as deputy 
assistant secretary for enforcement and programs at the 
Department of Housing and Urban Development's office of fair 
housing. I retired in 2015 from that position.
    My career spans 41 years in fair housing work. I have also 
worked to enforce state licensing and regulation requirements 
applied to nursing homes, day cares, and group homes in the 
State of Kentucky, as well as closing down illegal and 
unlicensed operations.
    I have submitted written testimony for a more detailed 
discussion of the fair housing issues around sober home 
operations, and several attachments for the committee's 
consideration.
    As the committee already knows, there is a large body of 
Fair Housing and Americans With Disabilities Act case law that 
constrains localities from completely excluding, or from 
limiting the location of sober homes, and also requires that, 
in general, they be treated as ordinary residential uses. This 
is well-established case law--all circuits, all district 
courts.
    But the fact that there are Fair Housing and ADA 
protections for these group homes that house people with 
disabilities, including Sober Living Homes does not mean that 
there cannot be reasonable and legitimate regulation of group 
homes or sober living environments.
    Local governments continue to say we can't--that the Fair 
Housing Act somehow protects or prevents operations of 
seriously concerning situations, that the Fair Housing Act 
protects local governments--sorry, prevents local governments 
from pursuing bad operators, essentially. And that is just not 
the case.
    Scoundrels often say that they deserve the protection of 
the law. I have seen it throughout my entire career in fair 
housing. But there is no reason why a local government should 
be concerned about liability if it uses legitimate and 
reasonable regulations to operate, to constrain the operation 
of Sober Living Homes.
    Now, I imagine, even amongst this panel, we might have some 
discussion about what exactly those criteria might look like to 
ensure effective operation, to protect residents, to protect 
neighborhoods. But it is not, in and of itself, a violation of 
the law to consider a regulation or certification process for 
Sober Living Homes.
    And both the Fair Housing Act and the ADA, I think, are 
behind those two bedrock civil rights laws that protect the 
rights of people with disabilities--are also intended to 
protect them from abuse or neglect, not just from 
discrimination. But they also recognize that, without these 
Sober Living Homes, people with addictions, people with heroine 
addictions, opioid addictions, alcoholism will be out on the 
streets.
    And so the recognition of the process is the balancing 
between providing protection for residences occupied by people 
with disabilities, and ensuring that those--the operations that 
are provided are safe and protected by the police power of 
state and local jurisdictions.
    State and local jurisdictions can use any number of tools 
to protect the residents of Sober Living Homes and protect 
their neighbors without amending the Fair Housing Act or the 
Americans With Disabilities Act.
    For example, Congress could encourage development of a 
national best practices for Sober Living Homes, using input 
from municipalities, from local organizations, from municipal 
groups, from disability organizations, and from the Department 
of Health and Human Services to look for criteria. They even 
could establish and make recommendations to this joint effort 
to prepare a local ordinance that would pass scrutiny under the 
Fair Housing Act and the ADA, but would also meet the needs of 
local communities. There are models for this approach, 
including an effort that took place in the 1990s that I saw 
when I was at HUD then.
    It is acceptable under the Fair Housing Act to establish 
registration or certification programs based on the protection 
of health and safety, as long as they do not inappropriately 
burden sober homes or require unreasonable spacing burdens or 
unreasonable occupancy burdens.
    Local law enforcement actions can, obviously, be taken to 
address criminal activity, and code enforcement can be used to 
address matters like littering and loud noise and alcohol and 
drug abuses in the community.
    Thanks to the committee for considering these issues.
    Mr. King. Thanks for your testimony, Ms. Pratt. The chair 
now recognizes Mr. Aronberg for his testimony. And we do not 
expect it will live up to your introduction. [Laughter.]
    Mr. Aronberg. I just hope he didn't take any of my five 
minutes. [Laughter.]

                   TESTIMONY OF DAVE ARONBERG

    Mr. Aronberg. Thank you, Mr. Chairman. Thank you, members 
of the committee. And Congressman Deutch, thank you very much 
for your very kind and unnecessary introduction. My name is 
Dave Aronberg. I am the state attorney for Florida's 15th 
judicial circuit, which covers all of Palm Beach County.
    Because of our tropical climate and long-established drug 
treatment centers, Palm Beach County has been a destination for 
individuals with substance use disorder.
    [Slide]
    Mr. Aronberg. As you see from the first slide up there, 
this is the Florida model of drug treatment, where you have 
someone with substance use disorder--usually it is heroine 
these days--they will come down to Florida for detox. Insurance 
will pay for about five days of detox and then about three 
weeks of inpatient treatment, followed by about four weeks of 
outpatient care. Three-quarters of the people who come down to 
Florida--excuse me, three-quarters of the people in recovery in 
Florida come from elsewhere.
    So, since we have so many people from elsewhere, they need 
a place to stay. And so they live, very often, in a sober home. 
A sober home is just a house. As you said, Mr. Chairman, there 
is no treatment there, there is no insurance reimbursement. It 
is just a group home of people, hopefully in a drug-free, 
mutually supportive environment.
    After the insurance benefits run out from outpatient care, 
then the hope is that the individuals are sober and can return 
home.
    The charge is about $300 a week, on average, to live in a 
sober home, paid out of pocket.
    In recent years, however, we have had a surge of 
unscrupulous individuals enrich themselves by exploiting well-
intended federal laws to prey on opioid addicts, who are often 
human-trafficked by marketers, sober homes, and facilities in 
exchange for illicit benefits such as cash, free rent, 
transportation, and even drugs themselves. This is the Florida 
Shuffle, the next slide that will come up here.
    [Slide]
    Mr. Aronberg. And you see from that that you have someone 
with substance use disorder who gets brought down to Florida 
through a marketer, usually through a free plane ticket, and 
deceptive marketing. And, by the way, the free plane ticket is 
illegal. It is a felony in Florida.
    Then they go to detox and patient treatment, outpatient 
care. The money exchanges hands. There is lots of kickbacks. 
There is patient brokering. This is the corrupted model that 
you see, from the corrupted providers. And everyone is making 
money off of this corrupted model, including the rogue labs.
    The only bubble there that is not profitable is sobriety. 
And you have individuals in sober homes, even living for free 
in some cases, because the sober home doesn't need to charge 
when they are getting a kickback from an outpatient treatment 
center, a market, or a lab to send their residents their way.
    It is hard enough to remain sober as it is, let alone 
knowing that your sobriety is going to cost you your free 
housing and your transportation and your friends, and now you 
have got to move back home to a snowy climate, live with your 
parents, and find a job.
    Good sober homes can improve treatment outcomes. But 
flophouses masquerading as sober homes only encourage relapse 
and failure.
    Together, the Americans with Disabilities Act and the Fair 
Housing Act largely prevent the regulation or inspection of 
these residences. And so it is sadly ironic that the very laws 
intended to help people with addiction are being misused to 
shield them--excuse me, are being misused to shield those who 
would do them harm.
    In July 2016 our office formed a sober homes task force--
and led by my chief assistant, behind me, Al Johnson--to crack 
down on this fraud and abuse. We have made 55 arrests with 23 
convictions so far. We also empaneled a grand jury and created 
two additional citizens task forces, including members of the 
recovery industry to recommend legislative changes leading to 
the 2017 passage of the state law that tightened enforcement 
and oversight of the drug recovery industry.
    The Florida legislature, however, largely avoided the 
subject of sober homes because of concerns over federal law. 
Meanwhile, our successful crackdown on rogue sober homes--and 
we are only talking about the rogue sober homes here--have 
scattered some of the bad actors to other locations, especially 
California.
    We can't fix this problem alone at the state and local 
levels. We need the Federal Government to act.
    First, my recommendation is to reissue the 2016 joint 
statement from DOJ and HUD with the proposed question and 
answer that I provided in my written submission to this 
committee. This would clarify that local and state governments 
can set reasonable sober home standards under the ADA and FHA 
for the protection of the residents in recovery.
    Second, there are significant proposals pending before 
Congress that can make a real difference. There is legislation 
that would establish model criteria for sober homes and award 
grants to states that utilize them. There is the CARA 2.0 Act 
that directs HHS to develop best practices for sober homes. And 
there is important language that would extend DOJ's 
jurisdiction to prosecute unlawful kickbacks in the drug 
treatment and sober home industries.
    These measures will save lives with minimal or no financial 
costs. They will finally address a part of the opioid crisis 
that has been fueled by a corrupt recycling of addiction.
    Thank you for your time here today.
    [The statement of Mr. Aronberg follows:]
    Mr. King. I thank you, Mr. Aronberg. I appreciate your 
testimony and all the testimony. The chair will now recognize 
himself for five minutes of questions.
    First I would turn to--I would like to go to Mr. Leishman, 
primarily, so I could pronounce your name correctly for the 
first time. And I wanted to explore your thought process on 
this.
    I am hearing some solutions be offered and a different 
combination of them. And part of our job is to sort those 
solutions out and maybe come up with some new ideas of our 
own--which I don't quite expect. But it is just that something 
has happened within our culture, and this is more or less a 
fairly recent intensity of this crisis that has gone on for 
some time. And I never hear anyone talk about how we actually 
fix that problem that is endemic within our culture. We talk 
about addressing it when it shows up.
    Do you have any recommendations to this committee on how we 
might look at this big picture for the long term to try to get 
to where the cultural circumstances that enable the abuse, the 
drug abuse that we have, how we could address that so that one 
day we may see our children or grandchildren live in a society 
that gets it right?
    Mr. Leishman. Is your question how can we get at the cause 
of the opioid crisis?
    Mr. King. Yes.
    Mr. Leishman. Well, I usually spend my days dealing with 
the back end of that problem. But on a personal level, yes, I 
do. I think that strong families and communities are a bedrock 
to that.
    I also think that over-prescription of opioids in the first 
place is--lies at the heart of the problem. And I think that is 
being addressed more now, thankfully.
    A number of our city clients were approached by a group 
that is putting together a class action, or has put together a 
class action suit against opioid-producing pharmaceutical 
companies, much like the big tobacco litigation. I don't know 
if that is going to be effective. I think the culture among the 
medical profession is starting to change. They are starting to 
wise up to the danger that they create when they over-
prescribe.
    Other than that----
    Mr. King. Okay. Let me suggest that, first--I know you 
didn't expect that question, didn't come here to testify to 
that depth, but I know you have thought about it, and I 
appreciate that.
    I would pose a follow-up question on this--and I think a 
very important part of that, when you mentioned the families 
and our neighborhoods--aside from that, which I agree with, 
then we have employment testing, for example, in many of the 
states. In Iowa we have employment testing that has been in law 
for over 20 years and it has never been litigated. It allows 
the private-sector employer to guarantee a drug-free workplace, 
and it has worked very, very well. That model works. We never 
transitioned that into testing in the workforce.
    But when I am asked that question, here is my answer, that 
if I really--going to be the drug czar that had to solve this 
problem and had to lay out a plan to do that, there is a lot of 
personal privacy rights that would be in question, and it is 
delicate to approach that. But I put that little caveat out 
there and suggest this, that if we tested in the workplace, if 
we tested in welfare, and if we tested in education, the people 
left that would be using and abusing drugs would be dealers and 
stealers whom the law enforcement could address, and we would 
have a lot smaller universe of people that needed to go into 
sober homes.
    How does that fit with your analysis?
    Mr. Leishman. Certainly, if it is proven to be effective in 
Iowa, I think it could have wider application.
    Mr. King. I thank you. And I would turn to the mayor pro 
tem, Mr. Peterson. And you have talked about the community, and 
how the community is developing. Are you comfortable, then, 
that if Congress enables it so that local government can 
regulate city, county, state, what levels would that be? How 
would that emerge in California, in your vision?
    Mr. Peterson. Well, our biggest thing is the bad actors 
hiding under a good program. So we can't get out there and 
inspect. And if we had the ability to get into--just know where 
they are--most of the time we know when the police are called, 
or the fire, but if we had that ability to regulate them--I 
mean even foster care is regulated, you can't have so many 
foster care in a certain neighborhood, but these people can buy 
three houses in a row and fill them.
    So having our ability to get out there, we don't have to 
have code enforcement peeking through windows, we don't have to 
be, you know, late to the party with the police coming or the 
fire coming. But we can be a little proactive, and make sure 
that, one, the facility is doing what they are supposed to do, 
and----
    Mr. King. Just from--I will interpret this that in that--
you would have in California, likely, a layer of regulations--
if we went to Mr. Rohrabacher's bill--that would have some 
state regulations, some county, and some city regulations 
working in some type of coordination?
    Mr. Peterson. Correct, correct.
    Mr. King. That is how I envision----
    Mr. Peterson. Yes, and I am sure we would be working with 
the county, because they are basically in charge of health and 
human services, not the municipality. So work out something 
where that is distributed more around the county in any type--
--
    Mr. King. And I would like to quickly turn to Mr. Aronberg 
and ask you if you had an opportunity to review the two bills 
that were testified to here by the two Members. And do you 
endorse either one of them? You have got some other 
alternatives here that you have offered today.
    Mr. Aronberg. Thank you, Mr. Chairman. Representative--
Congresswoman Chu's bill, I think, is very promising. I like 
the setting of guidelines. And I haven't read the entire bill, 
but from what I have seen in the synopses, it was very 
promising.
    I had some issues with Congressman Rohrabacher's bill, 
because I thought that it goes too far. I don't think you need 
to eliminate substance treatment disorder treatment entirely 
from the health care laws. I think that would probably lead to 
more harm than good.
    Plus, I think if you eliminate the--if you allow local 
governments to just ban sober homes, I don't think you are ever 
going to fix this problem. We are in an unprecedented opioid 
epidemic and, you know, you can't arrest your way out of it. 
You need to have legitimate rehab. And there are legitimate 
sober homes out there that are doing good work. We are trying 
to get at the part of the industry that has been corrupted. And 
I think that his bill, in due respect, goes too far.
    Mr. King. We have got some work we can do. I thank you, and 
each of you witnesses, and the chair now recognizes the ranking 
member from Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. First I want to follow 
up on your questions about the bills. Mr. Aronberg said he 
thought Ms. Chu's bill was the better of the two.
    And Ms. Pratt and Mr. Leishman, if I could--saw your heads 
nodding in a firm agreement. Would you state if I was correct 
in saying that you agree that the Chu bill would be preferable? 
Please don't nod.
    Ms. Pratt. So I--this is Ms. Pratt, and I do agree that 
the--Representative Chu's bill heads in the right direction. 
And I would add to that my comment that I think a group 
representing a variety of different perspectives, including the 
perspectives represented here at this table would be useful to 
inform a process.
    Mr. Cohen. Thank you.
    Mr. Leishman.
    Mr. Leishman. I agree. Congresswoman Chu's bill is great. 
Congressman Rohrabacher's bill goes several steps too far, in 
my opinion. It is similar to, but not as good as, Congressman 
Issa's bill--I believe it was 472--and I highly endorse that 
bill.
    Mr. Cohen. Thank you. And I am not going to put Mr. 
Peterson on the spot, because Dana is my friend, and I suspect 
Dana is your friend.
    Mr. Peterson. Yes, sir.
    Mr. Cohen. Good, thank you.
    I want to introduce on the record Mr. Nadler's statement, 
and a statement--a letter from the Consortium for Citizens with 
Disabilities. And I would like to----
    Mr. King. Without objection, so ordered.
    [The information follows:]
This material is available at the Committee and can be accessed 
on the committee repository at:
https://docs.house.gov/meetings/JU/JU10/20180928/108684/HHRG-
115-JU10-20180928-SD006.pdf
    Mr. Cohen. And I would like to read my opening statement, 
and I am going to try to do that within the 3 minutes and 28 
seconds.
    Today's hearing focused on Sober Living Homes, which are 
group homes for persons who are recovering from alcohol or 
substance addiction. In particular, it focused on whether the 
Fair Housing Act and Americans With Disabilities Act, and 
potentially other federal civil rights statutes need to be 
amended to allow state and localities to regulate sober homes.
    I take no position on the question of whether sober homes 
are the best means of integrating those recovering from 
addiction in society, nor do I have a view as to what might 
constitute best practices regarding the operation of sober 
homes. Those questions are beyond the jurisdiction and 
expertise of this subcommittee.
    As the subcommittee with jurisdiction over our Nation's 
civil rights laws, however, we must be very wary of attempts to 
create exemptions to such laws or otherwise weaken their 
enforcement mechanisms.
    Both the Fair Housing Act and the ADA prohibit 
discrimination against persons with disabilities with respect 
to housing and persons recovering from alcohol or substance 
addiction are considered to be disabled, and therefore, 
entitled to protections under those statutes. Congress passed 
these laws in order to counteract the effects of generations of 
stigma, negative stereotypes, social societal prejudice to keep 
persons with disabilities segregated and isolated from 
mainstream society.
    As a person with a disability, I am sensitive to any 
attempt to weaken these protections for these laws. I share the 
goal of ensuring that persons with disabilities are able to 
integrate and participate fully in the important aspect of 
American life: namely, the chance to live in a residential area 
among members of the broader society.
    Some municipalities claim they are too afraid to regulate 
Sober Living Homes because they fear being sued for violating 
the Fair Housing Act or the ADA. And indeed, cities have been 
sued successfully for violating those laws using zoning or land 
use regulations to restrict Sober Living Homes. Therefore, they 
seek an exemption to these statutes with respect to the 
regulation of Sober Living Homes.
    The fact is, however, that Sober Living Homes can be 
regulated without creating carve-outs to the civil rights laws. 
Indeed, group homes that serve persons with other types of 
disabilities are already regulated by states and localities 
without any need for a special exemption from the Fair Housing 
Act or the ADA. There is no reason Sober Living Homes cannot 
similarly be regulated within the existing confines of those 
statutes.
    Towards the end of the Obama Administration the Department 
of Justice and Department of Housing and Urban Development 
issued updated guidance answering specific questions commonly 
asked by states and localities about how to apply zoning and 
land use laws in ways that do not violate the Fair Housing Act. 
This guidance, in turn, updated previous long-standing guidance 
issued in the 1999--governing group homes and the Fair Housing 
Act.
    Moreover, the Fair Housing Act itself allows considerable 
flexibility for cities to address some of the very real abuses 
that sometimes occur with respect to the operation of for-
profit Sober Living Homes. For instance, it would not violate 
the statute to deny housing to someone who would constitute a 
direct threat to the health or safety of others, or would 
result in substantial property damage. Also, it does not permit 
discrimination complaints by those who currently use a 
controlled substance.
    I recognize there are legitimate concerns with the conduct 
of some Sober Living Home operators. Those who engage in fraud 
and abuse of residents can and should be punished, and 
reasonable regulation can and should be adopted.
    And I didn't know about the Florida Triangle, but that is 
shocking, that people do that.
    Doing so, however, does not require exemptions to civil 
rights law. The prior legislative proposals to do so dating 
back to the 1990s have all died in committee, and rightly so.
    I appreciate the witnesses for coming here, I apologize for 
being late. I am a big fan of Judy's, and I am a big fan of 
Dana's. So I appreciate them being here, and may God save the 
United States of America.
    Mr. Cohen. I yield back the balance of my time.
    Mr. King. The chair thanks the gentleman, the ranking 
member from Tennessee.
    And now I will recognize the gentleman from Florida, Mr. 
Deutch.
    Mr. Deutch. Thank you, Mr. Chairman, and thanks to all of 
our witnesses for being here today.
    Mr. Chairman, we have, as Mr. Aronberg pointed out, a lot 
of experience with sober homes in Florida. And to that end I 
ask unanimous consent to enter three letters that convey that 
experience from the City of Delray Beach, Florida; the City of 
Coconut Creek, Florida; and the Florida Association of Recovery 
Residences. I ask that they be entered into the record this 
morning.
    Mr. King. Without objection, so ordered.
    [The information follows:]
This material is available at the Committee and can be accessed 
on the committee repository at:
https://docs.house.gov/meetings/JU/JU10/20180928/108684/HHRG-
115-JU10-20180928-SD007.pdf
    Mr. Deutch. Thank you, Mr. Chairman. In Florida, an average 
day means that 15 people die from an overdose. It is tragic, it 
is unacceptable, and we have got to do everything we can to 
stop it. We have to help Americans find sobriety and maintain 
recovery. We have to try to save lives.
    Addiction is not about weak families, it is about a 
disease. And I would just point out that, because it is a 
disease, it is in our best interests to ensure that we do 
everything we can to help people get care, which is why the 
idea of repealing the Affordable Care Act and costing 2.8 
million people with substance use disorders their access to 
health care, and 220,000 with opioid disorders losing their 
access would be an enormous step backward.
    There is a battle and a war on overdose, and we have to end 
the stigma of addiction. Ending the federal housing protections 
won't win that battle. It is not theoretical. People with 
mental illness and substance abuse disorder suffer 
discrimination every day.
    A 2017 study by the Department of Housing and Urban 
Development found that people with mental illnesses face 
serious barriers in their search for a home. Improper requests 
to disclose personal and disability-related information 
steering toward specific housing, based on the individual's 
disabilities [sic].
    The Fair Housing Act was not, however, intended to protect 
businesses who take advantage of people struggling with 
substance use disorders to line their own pockets. So we can 
stop bad actors who encourage relapse and overdose and protect 
our communities, while maintaining discrimination protections 
at the same time. We can do both. Ms. Pratt talked about that, 
Mr. Aronberg talked about that.
    Mr. Aronberg, I am proud to have you here today to share 
your work with the committee. And I would note that you 
appeared before the Energy and Commerce Committee of this House 
last December. Your testimony and the testimony of Assistant 
State Attorney Al Johnson was instrumental in the creation of 
legislation that supported information--legislation that was 
included in the final opioids legislation that this House will 
vote on in about an hour. That bill will make it illegal to pay 
kickbacks for getting people in the door at sober homes and 
clinics. So you have already helped advance federal efforts to 
stop these abuses, and we are grateful for that.
    What I would like to know--you started touching on this--
you talked about reissuing--the joint statement, you talked 
about reasonable standards and model criteria. Tell us how that 
can be helpful. Tell us how what we are doing today, together 
with those efforts, can help to stop the schemes that you 
described and showed on the slides.
    Mr. Aronberg. Thank you, Congressman Deutch, and thank you 
for your nice words. I really appreciate it.
    As you can see from this panel, we come from different 
communities and different backgrounds. You could say different 
perspectives on this. But we seem to agree that you can work 
within the existing laws by clarifying them to really help fix 
a lot of these problems. And we may differ as to degree, but 
there--I think there is a consensus on that. And one way to do 
it is through the joint clarification.
    There was a joint statement issued by HUD and DOJ in 
December of 2016 that, in talking to local governments in 
Florida, wasn't very clarifying. It wasn't very helpful. And I 
can tell you from our law enforcement perspective, it has not 
been very helpful.
    And I think that you may not even have to rewrite it, you 
can just add a 17th question. There were 16 questions and 
answers, and the 17th--and I have provided a sample in my 
written remarks, which allow local governments to implement 
licensing and reasonable regulations that are narrowly tailored 
to meet the actual needs of the occupants in recovery. And I 
think that would be consistent with the ADA and the FHA.
    And you asked about what other communities are doing. In 
Delray Beach, which is in your district, or used to be in your 
district, actually, before the reapportionment, in order--they 
have a new ordinance there that, in order to obtain a 
reasonable accommodation, which is for more than three 
unrelated adults in Delray Beach, that the house, the sober 
home, needs to be certified or otherwise demonstrate adherence 
to recognize national standards. And there is two ways to do 
that: through NARR, National Association of Recovery Residences 
and its affiliate, FARR, which have nationally recognized 
standards; or through an Oxford House model. And so this is the 
way that Delray Beach is doing it.
    Now, one reason why I am here, and I think others are here, 
is because local governments such as Huntington Beach are 
afraid to do what Delray Beach did because they could get sued. 
Delray Beach is doing it. They haven't been sued yet. But that 
is why the Federal Government needs to give more clarification 
to local governments, to let them know.
    Can they do what Delray Beach did? Can they act in this 
way? I think they can, but right now local governments are 
going out there on their own, and we need to give them a little 
more protection and clarification.
    Mr. Deutch. Mr. Chairman, this is a really important topic, 
and I appreciate your holding this hearing. And it means a 
great deal that the witnesses made time to be here, as----
    Mr. King. The gentleman is granted unanimous consent for an 
additional minute.
    Mr. Deutch. No, I am through, Mr. Chairman. Thank you. It 
was just to express my thanks to you for holding this hearing.
    Mr. King. Okay, I appreciate that. And I want to express my 
gratitude to all the witnesses here this morning. And this 
concludes today's hearing.
    And without objection, all members will have five 
legislative days to submit additional written questions for the 
witnesses or additional materials for the record.
    I thank each of you, and this hearing is now adjourned.
    [Whereupon, at 10:07 a.m., the Subcommittee was adjourned.]

                                  <all>
</pre></body></html>
